audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Pyramid Lake Pauite Tribal Police Department, Nixon, Nevada
GR-90-99-018
May 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Pyramid Lake Paiute Tribal Police Department (TPD), Nevada.  The TPD received a grant of $58,727 to hire 1 sworn officer under the Funding Accelerated for Smaller Towns (FAST) and $124,037 to hire 2 sworn officers under the Universal Hiring Program grant (UHP).  In addition, the TPD received $88,911 to redeploy 6.6 sworn officer full-time equivalents (FTEs) to community policing under the Making Officer Redeployment Effective grant program (MORE 95).  The purpose of the additional officers under the grant program is to enhance community policing efforts.

	In brief, our audit determined that the TPD violated the following grant conditions:

The TPD could not demonstrate and document the redeployment of 6.6 sworn officer FTEs to community policing under the MORE 95 grant.  This resulted in $29,637 of unsupported costs.  The grant award period expired on August 31, 1998, and an extension has not been granted.  Therefore, the remaining grant award balance ($59,274) should be deobligated and the funds put to better use.  
	
	The TPD charged the FAST/UHP grant a total of $18,571 (federal share) in questioned costs.  The questioned costs consisted of both unallowable ($7,920) and unsupported costs ($10,651).  The unallowable costs included salaries and benefits of two terminated officers.  In addition, the TPD was reimbursed from the FAST grant funds for an officer's salary and benefits incurred after the grant expiration date.  

	The TPD did not provide the local matching funds of $19,576 for the expired FAST grant which funded one sworn officer.  With a total budget for salaries and benefits of $78,303 for the one sworn officer, expenditures through August 31, 1998 (grant expiration date) totaled only $56,097.

The TPD did not comply with the following grant report requirements:

the Department Initial Report was inaccurate;

	the 1997 Annual Department Report and the Officer Progress Reports were not submitted timely for the FAST grant;

	none of the Progress Reports for the MORE 95 grant was submitted as required;

	two Financial Status Reports (FSRs) were not submitted as required for the FAST/UHP grant and one FSR was not submitted for the MORE 95 grant;

	9 of the 15 FSRs for the FAST/UHP grants were not submitted timely; and

	7 of the 13 FSRs MORE 95 grant were not submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.